               U.S. JOINT FORCES COMMAND
            COMPTROLLER DIVISION OPERATIONS


Report No. D-2000-159                   July 12, 2000




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932 or visit the Inspector
  General, DoD, Home Page at: www.dodig.osd.mil.


  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-89342. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-2885

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
APC                   Agency Program Coordinator
USJFCOM               U.S. Joint Forces Command
                        Office of the Inspector General, DoD
Report No. D-2000-159
 (Project No. D1999FH-0093)                                                  July 12, 2000
 (formerly Project No. 9FH-5025)

      U.S. Joint Forces Command Comptroller Division Operations

                                   Executive Summary

Introduction. We performed this audit in response to a request by the Commander in
Chief, U.S. Joint Forces Command, to assess the efficiencies of Comptroller Division
operations after its recent reorganization. The Comptroller Division coordinates the
requirements, development, and execution of the command budget, which totaled
$191 million for FY 1999. The Comptroller Division recently reorganized to provide
resource management functions for five additional Joint Command sub-activities and to
manage an increasing budget.

Objectives. Our overall objective was to evaluate the efficiency of Comptroller
Division operations after its recent reorganization. We evaluated the processes for
formulating and executing the budget and liquidating travel claims. We also evaluated
civilian attendance records, overtime, compensatory time, the health and wellness
program with respect to overtime and compensatory time, and the travel and purchase
card programs. In addition, we reviewed the implementation of management controls
applicable to those areas.

Results. Our review showed that the processes for budget formulation and execution,
for liquidating travel claims, and for the travel and purchase card programs were
adequate. However, the management control program of the U.S. Joint Forces
Command Comptroller Division was not adequate. Consequently, Comptroller
Division personnel may not have identified management control weaknesses that require
corrective actions. For details of the audit results, see the Finding section of the report.
In addition, see Appendix B for other matters of interest related to management’s
request. See Appendix A for details on the management control program.

Summary of Recommendations. We recommend that the Comptroller Division fully
implement the management control program requirements of DoD and of the U.S. Joint
Forces Command for performing risk assessments and management control reviews.
We recommend that the Comptroller Division ensure that planned corrective actions are
accomplished.

Management Comments. We provided a draft of this report on April 18, 2000. No
management comments were received. We request that the Comptroller, U.S. Joint
Forces Command, provide comments on the final report by August 14, 2000.
Table of Contents

Executive Summary                              i


Introduction
     Background                               1
     Objectives                               2

Finding
     Adequacy of Management Control Program   3

Appendixes
     A. Audit Process
           Scope                               7
           Methodology                         8
           Management Control Program          8
           Summary of Prior Coverage           9
     B. Other Matters of Interest             10
     C. Audit Request Letter                  14
     D. Report Distribution                   15
Background
    The U.S. Joint Forces Command (USJFCOM) was officially established on
    October 7, 1999. USJFCOM was redesignated from the former U.S. Atlantic
    Command. We last reviewed the U.S. Atlantic Command Comptroller Division
    in December 1996. After that review, the Comptroller Division underwent a
    major reorganization that included adding the responsibilities for five Joint
    Command sub-activities.

    The reorganization had the following objectives:

           •   to create an internal structure capable of providing the basic resource
               management functions for a multiappropriation, multiyear,
               command-wide annual budget of $300 million;

           •   to provide USJFCOM staff and subordinate activities with program
               management and analysis support; and

           •   to continue to review and analyze staffing levels required to support
               assigned missions and functions in conjunction with new systems and
               a new team concept and identify potential downsizing.

    Because of the reorganization and time span since the last review, the
    USJFCOM Inspector General and Comptroller requested that we conduct an
    audit to assess and identify where efficiencies could be improved. We expanded
    the audit scope to address management concerns raised after we received the
    request. The additional areas included the travel and purchase card programs,
    the health and wellness program with respect to overtime and compensatory
    time, and the formulation and execution of the budget.

    Comptroller Division. The USJFCOM Comptroller Division has 31 billet
    authorizations. Before the consolidation of financial management functions for
    all USJFCOM subordinate activities within the local area, the Division had 16
    billets. As of November 16, 1999, 29 authorized billets were filled. The
    USJFCOM Comptroller Division used the Standard Accounting and Reporting
    System – Field Level, maintained by the Department of the Navy, as its official
    accounting system.

    Personnel Support Detachment. Personnel Support Detachment serves as the
    central point of contact for travel claims for the entire command. Personnel
    Support Detachment processes travel claims through coordination with the
    Defense Finance and Accounting Service Charleston, South Carolina, and
    provides reimbursement information to the Comptroller Division and to
    travelers.

    Personnel Department. The Personnel Department serves as a central
    administrative contact throughout the command. Time and attendance records
    for USJFCOM are input there and transmitted to the Defense Finance and
    Accounting Service. The Personnel Department administers check-in and
    check-out procedures for transferring civilian personnel.


                                        1
Objectives
     Our overall objective was to evaluate the efficiency of USJFCOM Comptroller
     Division operations after its recent reorganization. We evaluated the processes
     for formulating and executing the budget and liquidating travel claims. We also
     evaluated civilian attendance records, overtime, compensatory time, the health
     and wellness program with respect to overtime and compensatory time, and
     travel and purchase card programs. In addition, we reviewed the
     implementation of management controls applicable to those areas. See
     Appendix A for the audit scope and methodology and a summary of prior
     coverage related to the audit objectives. See Appendix B for other matters of
     interest.




                                        2
           Adequacy of Management
           Control Program
           The management control program in the Comptroller Division was not
           adequate. Specifically, the Comptroller Division did not perform risk
           assessment analyses or management control reviews. The management
           control program needed improvement because management did not
           provide the resources for the program or emphasize it. As a result,
           Comptroller Division personnel may not have identified management
           control weaknesses requiring corrective actions.



Management Control Program Guidance
    DoD Directive. DoD Directive 5010.38, “Management Control (MC)
    Program,” August 26, 1996, requires managers to “. . . continuously monitor
    and improve the effectiveness of vital management controls. Continuous
    monitoring and other periodic evaluations should provide the basis for the
    annual statement about reasonable assurance.” The purpose of the Directive is
    to establish the DoD management control program and address the establishment
    and assessment of management controls. In addition, the Directive establishes
    policy and assigns responsibilities. The Directive requires that all DoD
    Components do the following:

           •   establish a management control process;

           •   segment the DoD Components into assessable units;

           •   conduct risk assessments on the assessable units;

           •   develop a management control plan;

           •   evaluate the effectiveness of management controls, including
               conducting internal or alternative management control reviews as
               necessary;

           •   schedule and monitor corrective action if management control
               weaknesses are identified; and

           •   prepare reports.

    An assessable unit is any organizational, functional, programmatic, or other
    applicable subdivision capable of being evaluated by management control risk
    assessment procedures, management control reviews, alternative management
    control reviews, or other actions.

    DoD Instruction. DoD Instruction 5010.40, “Management Control (MC)
    Program Procedures,” August 28, 1996, states that all heads of DoD


                                        3
    Components should “. . . establish and maintain their management control
    program and ensure compliance with this Instruction and [DoD Directive
    5010.38].” The Instruction requires that each DoD Component develop a
    management control program that is segmented along organizational, functional,
    or programmatic lines into assessable units. The DoD Component must
    establish and maintain an inventory of assessable units, which should be
    reviewed and updated annually.

    Command Instruction. U.S. Atlantic Command Instruction 5010.1C,
    “Management Control (MC) Program,” February 22, 1999, states that the
    objective of the USJFCOM management control program “. . . is to provide
    managers with a mechanism to formally assess the efficiency and effectiveness
    of controls in their functions, programs, and processes, and to identify and
    correct weaknesses in their controls.” The Instruction also requires that
    assessable units with medium risk ratings be given a followup review within
    2 years through either an internal management control review or an external
    alternate management control review. The following table shows when
    followup management control reviews or alternate management control reviews
    should be performed.

                               Effect of Assessment Risk
                                 on Review Schedules

                  Assessment Risk               Next Review
                      Low Risk                  Every 3 years
                     Medium Risk                Every 2 years
                      High Risk                  Every year


    In addition, the Instruction requires managers of assessable units to conduct
    “. . . informal reassessments every year and formal reassessments at least every
    5 years and as major changes occur.”



USJFCOM Implementation
    In accordance with guidance, the Commander in Chief, USJFCOM, delegated
    responsibility to the Inspector General, USJFCOM, for administering and
    imposing quality control over the USJFCOM management control program.
    The responsibilities included maintaining and updating the list of assessable units
    at USJFCOM headquarters. USJFCOM directorates, staff offices, and points of
    contact were assigned management control program responsibilities for each
    assessable unit.




                                         4
Reviews and Assessments
    Comptroller personnel last performed a management control review in October
    1994 for the functional area of budget formulation and execution. The review
    resulted in a medium risk assessment. According to Command guidance, the
    medium risk assessment warranted either a management control review or an
    alternate management control review within 2 years. A management control
    review of budget formulation and execution should have been performed by
    October 1996. Even with the best possible risk assessment, management would
    have been required to perform a review in 3 years, or by October 1997.
    However, as of December 1999, no formal management control review of
    budget formulation and execution had been performed.

    Command guidance also provides that informal reassessments be performed
    each year and a formal reassessment be conducted at least every 5 years. The
    documentation available for the review in October 1994 was for the formal
    reassessment, not a management control review. Therefore, another formal
    reassessment would have been required by October 1999. No record exists of
    any management control reviews of budget formulation and execution during
    that time period.

    The Comptroller Division underwent major changes in size and scope after
    FY 1996. Since FY 1996, staffing grew from 11 to 29, the budget grew from
    $122 million to $191 million, 5 Joint Command sub-activities were created, and
    the administration of travel and purchase cards was added to the work load.
    Command guidance requires that formal reassessments be conducted whenever
    major changes occur. Reviewing the effect of the changes on the Comptroller
    Division would have identified any need for additional assessable units. As of
    December 1999, no additional risk assessments or management control reviews
    had been performed.



Conclusion
    The Comptroller Division managers need to increase their efforts to ensure that
    the management control program is effective and adequate. Management must
    ensure that the management controls comply with DoD-wide and Command-
    wide policies and regulations. Management must also ensure that all risk
    assessments and management control reviews are performed as scheduled and
    according to DoD and USJFCOM guidance. After the reorganization of the
    Comptroller Division, the assessments and reviews are needed to help managers
    determine where they should use their resources.

    Reviewing only the assessable unit for budget execution and formulation may
    not ensure that the management controls for all Comptroller Division functions
    are effective. In recognition of the increased responsibilities for administering
    travel and purchase cards and coordinating travel vouchers, consideration should



                                        5
    be given to adding assessable units for those areas to the Comptroller Division’s
    management control plan. A comprehensive list of assessable units should
    completeness and accuracy of ratings and reports.



Recommendations
    We recommend that the Comptroller, U.S. Joint Forces Command:

           1. Perform risk assessments and management control reviews as
    scheduled and required by DoD and U.S. Joint Forces Command guidance.

            2. Perform risk assessments whenever major changes occur in an
    assessable unit and update the management control program, if necessary.
    Identification of the appropriate assessable units should be part of the effort.

           3. Ensure that actions undertaken to correct identified management
    control weaknesses are accomplished.

Management Comments Required
    The U.S. Joint Forces Command Comptroller Division did not comment on a
    draft of this report. We request that the Comptroller provide comments on the
    final report.




                                         6
Appendix A. Audit Process

Scope
    Work Performed. We performed this audit of USJFCOM Comptroller
    Division operations in response to a request by the Commander in Chief,
    USJFCOM. USJFCOM requested that we assess the efficiencies of specific
    areas within the Comptroller Division. See Appendix C for the audit request
    letter. We evaluated the processes for budget execution and formulation and
    liquidating travel claims; we also reviewed civilian attendance records,
    overtime, and compensatory time. In addition, we reviewed the administration
    of travel and purchase cards. We also evaluated the adequacy of the DoD
    management control program as it applied to the primary objectives. The
    Comptroller Division budget for FY 1999 was $191 million.

    We interviewed employees of the Comptroller Division and the Personnel
    Department. In addition, we reviewed local Command employees’ timecards
    for the pay periods ending October 9 and October 23, 1999, and usage reports
    of overtime and compensatory time for October 9 and November 6, 1999.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate-level goals,
    subordinate performance goals, and performance measures. This report pertains
    to the achievement of the following goal, subordinate performance goals, and
    performance measures:

           •   FY 2001 DoD Corporate-Level Goal 2: Prepare now for an
               uncertain future by pursuing a focused modernization effort that
               maintains U.S. qualitative superiority in key warfighting capabilities.
               Transform the force by exploiting the Revolution in Military Affairs,
               and reengineer the Department to achieve a 21st century
               infrastructure. (01-DoD-2)

           •   FY 2001 Subordinate Performance Goal 2.3: Streamline the DoD
               infrastructure by redesigning the Department’s support structure and
               pursuing business practice reforms. (00-DoD-2.3)

           •   FY 2001 Subordinate Performance Goal 2.5: Improve DoD
               financial and information management. (01-DoD-2.5)

           •   FY 2001 Performance Measure 2.5.1: Reduce the number of
               noncompliant accounting and finance systems. (01-DoD-2.5.1.)

           •   FY 2001 Performance Measure 2.5.2: Achieve unqualified
               opinions on financial statements. (01-DoD-2.5.2.)




                                        7
    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established functional area objectives and goals. This report pertains to the
    achievement of the following objective and goal:

           Financial Management Functional Area. Objective: Strengthen
           internal controls. Goal: Improve compliance with the Federal
           Managers’ Financial Integrity Act.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Infrastructure high-risk area.



Methodology
    Use of Computer-Processed Data. We relied on computer-processed data
    from the USJFCOM personnel office to determine the number of overtime hours
    disbursed in each pay period. Although we did not perform a formal reliability
    assessment of the computer-processed data, the timecards generally agreed with
    the computer-processed data. We did not find errors that would preclude use of
    the computer-processed data to meet the audit objectives or that would change
    the conclusions in this report.

    We also relied on General Ledger Account 1960 reports of computer-processed
    data from the Standard Accounting and Reporting System – Field Level in the
    analysis of unmatched disbursements. We did not perform a formal reliability
    assessment of the computer-processed data. We did not find errors that would
    preclude use of the computer-processed data to meet the audit objectives or that
    would change the conclusions in this report.

    Audit Type, Period, and Standards. We performed this economy and
    efficiency audit from October 1999 though January 2000 in accordance with
    auditing standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DoD. Accordingly, we included tests of
    management controls considered necessary.

    Contacts During the Audit. We visited or contacted individuals within
    USJFCOM. Further details are available upon request.



Management Control Program
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, requires DoD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.



                                         8
     Scope of the Review of the Management Control Program. The audit
     evaluated the implementation of the DoD management control program as
     applicable to USJFCOM Comptroller Division operations. Specifically, we
     examined all procedures and practices for liquidating travel claims; preparing
     civilian attendance records; recording overtime and compensatory time;
     administrating the health and wellness program, travel cards, and purchase
     cards; and executing and formulating the budget.

     Adequacy of Management Controls. We identified material management
     control weaknesses as defined by DoD Instruction 5010.40. USJFCOM
     management controls were not adequate to ensure the efficiency of Comptroller
     Division operations. Recommendations 1., 2., and 3., if implemented, will
     assist in correcting the weaknesses. A copy of the report will be provided to the
     senior official responsible for management controls at USJFCOM.

     Adequacy of Management’s Self-Evaluation. Management of the USJFCOM
     Comptroller Division did not properly and effectively implement the DoD
     management control program to identify management control weaknesses. We
     consider that deficiency to be a material weakness as defined by DoD
     Instruction 5010.40, and one that resulted in failure to perform scheduled risk
     assessments and management control reviews and to perform risk assessments
     after major changes occurred. Management did not monitor the modifications to
     existing assessable units or evaluate the implementation of the management
     control program. See the Finding section for details.



Summary of Prior Coverage

Inspector General, DoD
     On January 30, 1997, the Readiness and Operational Support Directorate of the
     Office of the Assistant Inspector General for Auditing, DoD, issued a
     memorandum, “Review of Financial Operations at the U.S. Atlantic
     Command.” The memorandum describes our review of the efficiency and
     effectiveness of the U.S. Atlantic Command’s financial operations. The
     objectives and scope of the review were limited to identifying problems in the
     work load, operations, and structure of the Comptroller Division. The
     memorandum suggests that the Comptroller Division management remove all
     travel-related responsibilities from the office, delay the implementation of the
     purchase card program, and establish standard operating procedures.




                                         9
Appendix B. Other Matters of Interest

Budget Formulation and Execution
     The USJFCOM Comptroller Division’s budget formulation records were
     well-documented. A review of the documentation for budget execution for
     USJFCOM operation and maintenance funding and for one sub-activity showed
     that the documentation was consistent with criteria. One area that needed
     management attention was the resolution of unmatched disbursements.
     However, the Comptroller Division was not usually responsible for the creation
     of unmatched disbursements, and the Comptroller Division staff made
     reasonable efforts to resolve them. Also, the Department of the Navy continued
     to report a Navy-wide material weakness for unmatched disbursements in
     FY 1999.

Liquidation of Travel Claims
     Background. The Comptroller Division is responsible for the Command-wide
     travel claim process and reviews travel orders and travel claims submitted by
     the travel coordinators in other divisions. Comptroller Division personnel
     reviewed travel claims, manually entered the claims into a logbook, and
     forwarded the claims to Personnel Support Detachment. In FY 1999, 6,295
     travel orders were obligated, 4,729 were canceled, and 4,719 were settled. The
     total amount of FY 1999 obligations for travel was $7,987,604 ($6,017,916
     direct and $1,969,688 reimbursable).

     The Comptroller Division received complaints about the length of time it took
     travelers to receive travel claim reimbursements. The USJFCOM Inspector
     General and the Comptroller believed that the delays originated in Personnel
     Support Detachment, although they acknowledged that procedures had been
     added to the Comptroller Division’s tracking process. Comptroller Division
     personnel asked that the Division travel coordinators route travel claims through
     their office because they believed that was the only way they could obtain copies
     of all travel vouchers. Comptroller Division personnel stated that Personnel
     Support Detachment would not deal directly with the traveler, but would interact
     only with the 35 Division travel coordinators in the Command and with
     Comptroller Division personnel.

     Management has reported a material control weakness in the travel area for the
     last 4 years. Specifically, the Annual Statements of Assurance for FYs 1995
     through 1998 state that needed travel instructions should be published.
     However, as of December 1999, only an unpublished draft of the travel
     instruction was available.

     Travel Order Process Within the Comptroller Division. When a Division
     travel coordinator sends a travel order to the Comptroller Division, an
     accounting technician files a copy of the order in the Comptroller Division’s
     records. The Comptroller Division uses the copy to reconcile its accounts.

                                        10
    Travel Claim Process. Upon return from temporary duty, the traveler
    completes a travel voucher and sends the travel claim package through the
    Division travel coordinator to the Comptroller Division. The Comptroller
    Division reviews the travel claim and sends the package to Personnel Support
    Detachment, which processes the travel claim and returns it to the Comptroller
    Division. The Comptroller Division copies and processes the travel summary
    and forwards the original travel summary to the appropriate Division travel
    coordinator.

    Analysis of Travel Claims. The Division travel coordinators used a travel
    claim checklist to ensure that travelers sent all the information required by
    Personnel Support Detachment. The Comptroller Division then used the same
    checklist for the same purpose. Although the use of the checklist in the
    Comptroller Division was redundant, personnel believed that the practice was
    worthwhile.

    We analyzed the Comptroller Division’s travel claim logs for March 1998
    (when the log began) and August 1999. During those 2 months, the average
    processing time from receipt of a travel claim to forwarding to Personnel
    Support Detachment was 1 day. During the same 2 months, the average interval
    for processing a travel claim at Personnel Support Detachment increased from
    14.2 days to 23.9 days. Therefore, we concluded that the delay in processing
    travel reimbursement claims was not caused by the Comptroller Division. The
    scope of our audit was limited to the Comptroller Division. Accordingly, we
    did not evaluate the Personnel Support Detachment procedures for processing
    travel claims.



Health and Wellness Program, Civilian Attendance Records,
  Overtime, and Compensatory Time
    In March 1999, USJFCOM amended U.S. Atlantic Command Staff Instruction
    6110.2C, “Health and Wellness Program,” to allow civilians to participate in
    the health and wellness program. Enrollment in the program is optional and
    allows civilians time during the normal workday to participate in a fitness
    program at headquarters. Since the amendment, there have been allegations of
    abuse of the program. USJFCOM officials were concerned that civilian
    participation had caused an increase in requests for the overtime and
    compensatory time throughout the Command.

    According to the amended instruction, 6110.2D, the supervisor must document
    and account for time authorized for physical fitness training on the time cards.
    However, USJFCOM guidance for preparation of time cards did not provide a
    code for timekeepers or supervisors to annotate fitness time on the time cards.
    In addition, USJFCOM supervisors did not document the time authorized for
    physical training on the timecards. We notified USJFCOM about the condition,
    and USJFCOM officials said they would address it.




                                       11
    As a result, no information was available to evaluate the allegation that civilian
    participation in the health and wellness program prompted an increase in
    overtime and compensatory time. We were unable to review individual time
    cards to determine whether the overtime was occurring on the day of the
    physical fitness training or make comparisons to pre-April 1999 overtime
    patterns for specific employees. We were also unable to perform any
    comparative analysis with prior year data because the prior year data were not
    available. However, we concluded that the number of overtime requests within
    the Comptroller Division increased with the addition of new employees and new
    programs, although the time cards showed no substantial increase in
    compensatory time.

    While attempting to evaluate the physical fitness allegation, we noticed minor
    errors in the processing of time cards. We provided the specific details of the
    errors to management during our visit. Timekeepers and supervisors did not
    adhere to local guidance for preparation of time cards. Our review of time
    cards in the Comptroller Division showed an unapproved request for 20 hours of
    overtime, which resulted in 8 hours granted. In another instance, 1 hour of
    overtime was requested and approved for an employee, but 5 hours of overtime
    were granted. Timekeepers, supervisors, and Personnel Department employees
    did not detect the errors during the normal approval process. We provided the
    information to appropriate personnel during the audit, and actions were taken to
    resolve the matter.



Administration of Travel Cards
    Travel Card Program. According to DoD Regulation 7000.14-R, the “DoD
    Financial Management Regulation,” volume 9, “Travel Policy and Procedures,”
    chapter 3-030304D, July 1998, “All reserve component personnel (to include
    Individual Mobilization Augmentees [IMAs]), and seasonal or part time civilian
    employees are authorized to use the travel card for official travel.”

    Personnel in the Joint Reserve Unit were not initially aware of the guidance on
    travel cards, although they became cognizant of it during the audit. A Joint
    Reserve Unit staff member said that travel card applications were presently
    issued to reservists as they reported for their monthly drills.

    The Agency Program Coordinator (APC) did not reconcile travel card usage
    reports with official travel orders and travel logs published for the
    corresponding month, disregarding a management control prescribed by DoD
    Regulation 7000.14-R, volume 9, chapter 3-030308. Other APCs also
    disregarded the guidance. A cost-benefit analysis of that requirement might
    determine that it duplicates other controls in place and does not add any benefit
    to the organization.

    During the audit of the Comptroller Division, specifically the travel card
    program, we reviewed the procedures that the various personnel offices used to
    check in and check out personnel. Although the Comptroller Division did not


                                        12
    control those procedures, they had a direct effect on the travel card program
    because the personnel offices administered personnel transfers into or out of the
    Command. Because neither the Personnel Program Support Division (Active
    Military) nor the Joint Reserve Unit (Reserve Military) required personnel to
    notify the Comptroller Division of transfers, the APC was unable to maintain a
    current database of travel card holders. Employees in both personnel offices
    stated that the policies and forms for check-in and check-out would be changed
    to require that the Comptroller Division be notified of transfers. The changes
    should enable the APC to comply with regulations by maintaining a current
    database of travel card holders.



Administration of Purchase Cards
    USJFCOM implemented the Government-wide Commercial Purchase Card
    Program approximately 2 years ago to streamline the purchasing process. The
    Comptroller Division administers the purchase card program. The APC, a
    Comptroller Division staff member, has overall responsibility for management,
    administration, accounting data entry, and day-to-day operations of the purchase
    card program. The APC issues letters of delegation or grants of authority to
    officials to authorize the use of purchase cards, and the APC also acts as the
    certifying officer for purchases. The APC is also responsible for providing
    training to cardholders, performing semiannual audits of purchase cardholders,
    and providing an annual report to the Fleet Industrial Supply Center.

    Naval Supply System Command Instruction 4200.94, “Department of the Navy
    (DON) Policies and Procedures for the Implementation of the Governmentwide
    Commercial Purchase Card Program (GCPC),” June 29, 1999, is the primary
    source of guidance from the Navy for the purchase card program. U.S. Atlantic
    Command Staff Instruction 4200.85, “Operating Procedures for Participation in
    the Governmentwide Commercial Purchase Card Program,” July 7, 1997, meets
    the requirement in the Navy guidance to develop a local program of internal
    operating procedures. No problems were noted in our review of procedures in
    the purchase card program.




                                        13
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Director, Defense Logistics Studies Information Exchange


Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Unified Commands
Commander in Chief, U.S. Joint Forces Command
  Inspector General, U.S. Joint Forces Command
  Comptroller, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Contract Audit Agency

Non-Defense Federal Organizations
Office of Management and Budget
General Accounting Office
  National Security and International Affairs Division
      Technical Information Center




                                          15
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                       16
Audit Team Members
   The Finance and Accounting Directorate, Office of the Assistant Inspector
   General for Auditing, DoD, prepared this report. Personnel of the Office of the
   Inspector General, DoD, who contributed to the report are listed below.

   F. Jay Lane
   David F. Vincent
   John A. Richards
   Ronald L. Smith
   James Fleischman
   Kandy Sutton
   Anissa Nash-Brooks
